<html>
<title> - SYRIA: WHICH WAY FORWARD?</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
                       SYRIA: WHICH WAY FORWARD?

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 6, 2018

                               __________

                           Serial No. 115-109

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
        
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                       

                                 ______
                                 
                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
 28-540 PDF                 WASHINGTON : 2018       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                                     
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
DARRELL E. ISSA, California          GERALD E. CONNOLLY, Virginia
RON DeSANTIS, Florida                DAVID N. CICILLINE, Rhode Island
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
ADAM KINZINGER, Illinois             BRENDAN F. BOYLE, Pennsylvania
LEE M. ZELDIN, New York              TULSI GABBARD, Hawaii
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
ANN WAGNER, Missouri                 THOMAS R. SUOZZI, New York
BRIAN J. MAST, Florida               TED LIEU, California
BRIAN K. FITZPATRICK, Pennsylvania
JOHN R. CURTIS, Utah
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Robert Ford, senior fellow, Middle East Institute 
  (former United States Ambassador to Syria).....................     7
Mr. Faysal Itani, senior fellow, Atlantic Council................    15
Mr. Charles Lister, senior fellow, director of counter-extremism 
  and counter-terrorism, Middle East Institute...................    23
Mara Karlin, Ph.D., associate professor of the practice of 
  strategic studies, School of Advanced International Studies, 
  Johns Hopkins University (former Deputy Assistant Secretary of 
  Defense for Strategy and Force Development)....................    37

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Robert Ford: Prepared statement....................     9
Mr. Faysal Itani: Prepared statement.............................    17
Mr. Charles Lister: Prepared statement...........................    26
Mara Karlin, Ph.D.: Prepared statement...........................    39

                                APPENDIX

Hearing notice...................................................    62
Hearing minutes..................................................    63
The Honorable Theodore E. Deutch, a Representative in Congress 
  from the State of Florida: Statement submitted for the record 
  by Kassem Eid, a Syrian chemical weapons survivor..............    64
The Honorable David Cicilline, a Representative in Congress from 
  the State of Rhode Island: Material submitted for the record...    66
The Honorable Daniel Donovan, a Representative in Congress from 
  the State of New York: Prepared statement......................    74
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    75


                       SYRIA: WHICH WAY FORWARD?

                              ----------                              


                       TUESDAY, FEBRUARY 6, 2018

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:05 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order. 
Thank you to all the members who are here already. After 
recognizing myself and Ranking Member Deutch for our opening 
statements I will then recognize other members seeking 
recognition for 1 minute.
    We will then hear from our witnesses. And without 
objection, witnesses, your prepared statements will be made a 
part of the record and members may have 5 days in which to 
insert statements and questions for the record, subject to the 
length limitation in the rules.
    The chair now recognizes herself for 5 minutes.
    Near the seventh anniversary of the Syrian Civil War we 
still find ourselves calling for a clear and coherent strategy 
on the U.S. role in Syria and in helping bring the conflict to 
an end. The last administration repeatedly refused to engage 
with any real purpose in Syria, failing to follow through on 
red lines, and in effect, surrendering the field to Russia, to 
Iran, to Turkey to dictate Syria's future on their own terms.
    By now the reasons behind President Obama's reluctance to 
take a stronger stance against Iran in the region and beyond 
and his desire to reach a nuclear accord with a state sponsor 
of terror are well known. His Middle East rebalance or as he 
famously put it, ``sharing the neighborhood,'' no doubt also 
factored heavily into his Syria policy. Tragically, there has 
been a disastrous cost of inaction. Hundreds of thousands 
murdered, millions of refugees displaced. Violent turmoil 
spilling across borders and threatening our allies Israel and 
Jordan and Assad now firmly ensconced exacerbating Syria's 
political and humanitarian crises.
    Even worse, the regime in Iran flush with cash from the 
nuclear deal and emboldened by the Obama administration's focus 
elsewhere has solidified its so-called Shi'ite crescent of 
influence from Tehran through Baghdad and Damascus to Beirut 
and left a greatly strengthened terrorist group Hezbollah on 
Israel's doorstep. Considering these costs and a clear lack of 
U.S. willingness to engage many people were encouraged by 
Secretary Tillerson's recent speech in which he described the 
administration's vision for a way forward in Syria. Even if it 
lacked great detail at least it was a signal of intent by his 
administration to engage in Syria.
    The Secretary laid out five broad but commendable 
objectives. An enduring defeat of ISIS and al-Qaeda, a stable, 
unified independent Syria under post Assad leadership, 
diminishing Iranian influence, the return of refugees and 
internally displaced people, and a Syria free of weapons of 
mass destruction. As many people have noted, accomplishing 
these objectives would require significant resources, resources 
that the Secretary failed to commit to or detail in this lofty 
speech.
    Without these details it is difficult to see how we are 
going to meet the challenges ahead. Our NATO ally Turkey, who 
notoriously failed to stem the flow of foreign fighters and 
cash and weapons across its border for years is now engaged in 
operations against U.S. backed Kurdish and Arab forces in 
Syria's northwest, forces that have been essential in our fight 
against ISIS. And Russia, who appears determined to undermine 
the United States, wherever and whenever possible, has both 
coordinated with Turkey on its operations and commandeered the 
U.N. peace process in Geneva, an exercise that was always 
doomed as long as Russia was leading it.
    Meanwhile, Iran continues taking advantage of the chaos 
leveraging its tens of thousands of militia fighters to 
displace Sunni inhabitants, manipulate the region's 
demographics, and consolidate its own territorial gains. 
Through it all, it is the Syrian people who are suffering the 
most in what promises to be an extremely difficult rebuilding 
process. The administration has begun to talk about this 
process in terms of stabilization assistance, a necessary piece 
of any strategy.
    In delivering this assistance we must ensure that nothing 
we provide benefits Assad or his cronies, and it may be more 
beneficial to focus on the kind of humanitarian soft aid that 
will allow Syrian communities to reduce their dependence on 
Damascus.
    With so many challenges and complications after years of 
inaction and allowing others to fill the leadership vacuum we 
cannot afford another strategy, while praiseworthy with its 
broad strokes, that has missing details, missing commitment, 
missing resources.
    Our excellent panel today is designed to provide members 
with the full spectrum of assessments on the administration's 
plan, as well as their own understanding of U.S. interests and 
policy recommendations for Syria. And I am hopeful that this 
hearing can provide at least some clarity on a way forward that 
we so desperately need.
    And with that I am so pleased to yield to my friend and 
ranking member, Mr. Deutch of Florida.
    Mr. Deutch. Thank you, Madam Chairman, thank you for 
convening today's hearing, and thank you to our witnesses for 
joining us. I would like to take a moment right at the outset 
to acknowledge a special guest we have in our audience today. 
Kassem Eid was a victim of the Assad regime's horrific 2013 
sarin gas attack in Ghouta near Damascus. Thankfully he 
survived but hundreds of innocent men women and children did 
not. Kassem, thank you for being here, and we appreciate your 
being with us very much. Thank you.
    Madam Chairman, I ask unanimous consent to----
    Ms. Ros-Lehtinen. Without objection.
    Mr. Deutch [continuing]. Submit the statement into the 
record.
    Thanks, Kassem, as well for being one of the many living 
witnesses to the barbarism of the Assad regime who have been 
brave enough to share your stories with us here. You helped the 
American people and those around the world understand the 
brutal reality of life in Syria today.
    Three years ago a former Syrian military photographer known 
as Caesar testified before our committee with tens of thousands 
of photos documenting the Assad regime's systematic torture and 
murder of its citizens. We have since passed a bill bearing his 
name, the Caesar Syria Civilian Protection Act to hold the 
Assad regime and its international backers accountable for the 
ongoing atrocities in the now 7-year long war, a war that has 
displaced more than half the country and killed more than 1/2 
million people.
    While this conflict is not only a dire humanitarian crisis 
it is a deeply consequential geopolitical conflict and we 
cannot, we cannot ignore the impact of either. The Syrian 
refugee crisis is destabilizing neighboring countries and 
creating debates in European parliaments. Thousands of foreign 
fighters have flocked to Syria. Terrorist organizations like 
ISIS and al-Qaeda have found safe haven, and foreign powers 
including Iran, Russia, Turkey, Saudi Arabia, and the United 
States have all backed competing forces. What may have begun as 
a civil war has morphed into a complex array of geopolitical 
power struggles and proxy conflicts.
    Assad is only still in power today because when he was at 
his weakest Iran, Hezbollah, and Russia sent in fighters on the 
ground and war planes in the sky. And while this administration 
is rightly focused on defeating ISIS, we have urgently been 
asking the administration for clarity on its greater strategy 
for the future of Syria.
    As the U.S. Light Coalition has liberated nearly all ISIS-
held territory we need to know what comes next. Last month, 
Secretary Tillerson finally articulated that strategy in a 
speech at Stanford's Hoover Institute. He set out five 
objectives that the chair referenced. Number one, defeat ISIS 
and al-Qaeda. Number two, ensure a stable and unified post 
Assad Syria. Number three, diminish Iranian influence. Number 
four, help refugees begin to return home in Syria. And number 
five, prevent WMDs in Syria.
    These goals are laudable, and they are important, but the 
speech contained little in the way of concrete strategies to 
actually achieve these goals. And since this administration's 
rhetoric has been routinely incompatible with its actions, we 
still need more clarity.
    I am obviously not suggesting that this is easy. We have 
been having some version of this conversation for more than 7 
years. We are discussing a crisis that former CIA Director 
Brennan called the most complex, complicated issue that he ever 
had to deal with. But I am concerned. I am concerned that 
current American policy has left us on the outside looking in.
    Russia is already filling the void as the new power broker 
for the future of Syria. Russia, Turkey and Iran brokered 
deescalation zones in Syria that have not been deescalatory, 
and have disturbing long-term implications. They are policed by 
the Syrian Army with support from the Russian military, 
Hezbollah militants, and Iranian IRGC commanders. These are the 
very groups who have murdered hundreds of thousands of Syrian 
civilians, who are responsible for attacks on Americans, and 
who are actively fomenting sectarian violence throughout the 
region.
    At the same time, Turkish-U.S. relations are on life 
support as tensions flare over our support for Kurdish groups. 
Turkey views the YPG Kurdish group that we support as a part of 
the PKK terror group and has therefore launched a military 
invasion into northern Syrian. This is a dangerous recipe for 
two NATO allies.
    So with these confusing and competing elements in the Syria 
conflict we are fortunate to have an impressive panel to help 
us unpack this crisis, help us fill in the void for Secretary 
Tillerson.
    In order to achieve his desired end states in Syria what is 
actually needed? How can we continue to ensure this complex 
humanitarian emergency is addressed. What can we on this 
committee do to hold the administration's feet to the fire to 
ensure a coherent and a consistent policy in Syria? I look 
forward to hearing from our witnesses, and I thank you, Madame 
Chair. I look forward to our witnesses' testimony.
    I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Deutch. Mr. 
Kinzinger of Illinois.
    Mr. Kinzinger. Well, thank you Madame Chair, and thank you 
all for being here, Mr. Ford, Mr. Lister, not to put the other 
two away, but you guys have done great leadership on these 
issues, and I appreciate it and I look forward to hearing from 
you. It is going to be a good hearing.
    Look, this is 100 percent predictable where we are at right 
now. We predicted this years ago when this all started. What 
happens when you put down red lines and don't follow through, 
what happens, you know, there is a valuable role for the United 
States to play in terms of overthrowing dictators. Dictators 
don't work anymore in an era of information because people 
don't like to be oppressed. Despite what some people think, 
they just don't and they are going to throw off the shackles of 
oppression. And in that process we have an opportunity to help 
make a world of freedom or to let the Russians come in and do 
it.
    And I think--I am going to speak obviously more when my 
question time comes up, but I think it is important to note in 
all of this that Bashar al-Assad, of course, has blood on his 
hands and he should be put in front of a war crimes tribunal if 
not killed.
    And secondly, Russia and Iran bear the same responsibility 
because this man was about out of office, and they came in and 
stiffened his spine and his regime. His regime will fail 
because dictatorships fail ultimately, but the question is how 
much blood in between now and then.
    And I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Adam.
    Mr. Cicilline.
    Mr. Cicilline. Thank you, Madam Chairman. Thank you Madam 
Chairman and Ranking Member Deutch for holding this hearing 
today and thank you to each of the witnesses for being here 
today, for your work on these issues, and for providing your 
perspective today.
    Syria has been an unfolding tragedy since 2011 with 
estimates that 1/2 million people have been killed and more 
than 11 million people either internally displaced or refugees 
in other countries. The human suffering brought by this 
conflict has been staggering, and the willingness of the Assad 
regime and ISIS terrorist to inflict pain on the Syrian people 
for their own purposes is astonishing.
    However, I want to use my minute today to highlight the 
brutal attack that is under way against the Kurdish people of 
Afrin. And I know the chairman just mentioned this in the 
northwest region of Syria across the border from Turkey. This 
assault began on January 20 of this year by Turkey purportedly 
against Kurdish PKK terrorists. However, it has become quite 
clear that there has been a devastating impact on civilians 
including by Turkish bombing campaigns, as well as by 
terrorists associated with the Free Syrian Army.
    I recently met with Dr. Idris Othman, a constituent of mine 
from Rhode Island who is originally from Afrin, who provided 
pictures and reporting directly from the field where he himself 
still has family who are under threat by these attacks, and I 
ask Madame Chair unanimous consent that this report compiled by 
the Kurdish red crescent in Syria be submitted for the record.
    Ms. Ros-Lehtinen. Without objection.
    Mr. Cicilline. I urge my colleagues to take the time to 
review these documents. The images are chilling. We cannot 
stand by on the sidelines as these atrocities continue. I hope 
that we can work together, Madam Chairman and Mr. Deutch, to 
bring light to this situation of the Kurdish people in Afrin 
and ensure that the United States is engaged to protect 
civilian lives and convey to our NATO ally Turkey that they 
must abide by international norms and conventions, which 
require that they protect civilians and allow humanitarian and 
medical assistance. And with that I yield back.
    Ms. Ros-Lehtinen. Thank you very much. Ambassador Wagner, 
we have had two excellent opening statements. I don't want to 
put the responsibility on you----
    Mrs. Wagner. Put me on the spot----
    Ms. Ros-Lehtinen [continuing]. But you are recognized.
    Mrs. Wagner. Thank you. Thank you very much, Madam 
Chairman. Welcome, witnesses.
    I thank you for drawing attention to the ongoing crisis in 
Syria. I am beyond disheartened to hear of reports of the Assad 
regime's continued use of chemical weapons. Last week the 
administration announced that Syria is developing more 
sophisticated delivery mechanisms for chlorine and other 
chemical weapons in direct violation of the Organization for 
the Prohibition of Chemical Weapons Agreement.
    Last year, the Trump administration conducted an air strike 
on a Syrian air field 2 days after the regime killed innocent 
civilians and children in a chemical attack. It is imperative 
that the administration responds with strength and resolve to 
the latest chemical weapons reports. I thank you, Madam 
Chairman, and I yield back.
    Ms. Ros-Lehtinen. Well, you surpassed it. Thank you very 
much, and amen to everything you have said.
    Mr. Schneider of Illinois.
    Mr. Schneider. Thank you, Madam Chairman, ranking member, 
for having this hearing, to the witnesses for joining us today.
    Now in its seventh year a solution to the conflict in Syria 
remains elusive as President Assad continues his brutal 
assaults on his people. As ISIS is pushed out from the 
territory it controlled new challenges in scenes of conflict 
emerge. We are not at the end of this story but only beginning 
another chapter.
    Meanwhile, there are four countries United States, Russia, 
Iran, and Turkey vying for influence in the Syrian conflict. 
Given the severity of this conflict and the impact on the 
Syrian population it is imperative that the United States makes 
its goals clear and shows it is committed to the resources 
necessary to achieve these goals. A goal without a full 
commitment is a pathway to failure.
    What I hope to gain from today's discussion is a clear-eyed 
assessment of the administration's goals and strategy for the 
conflict in Syria and whether the current strategy is leading 
us down a path of success or a path of failure.
    I look forward to our discussion, and I yield back the 
balance of my time.
    Ms. Ros-Lehtinen. Thank you so much and I think that we 
should tell our colleagues about a wonderful op-ed that appears 
in today's the Hill with a coauthor of--who are those two 
people?
    Mr. Schneider. I was very honored and pleased to coauthor 
with the chairman an op-ed about the need to protect the 
election.
    Ms. Ros-Lehtinen. Well, thank you so much. Our staffers 
work so hard in putting these hearings on, and I am so 
delighted to introduce our lineup today because they have so 
much background and differing points of views and ways that 
they are looking at this situation. So thank you to all the 
hard working folks behind us.
    But I am delighted--I am not snubbing the remaining 
members, they said that they will hold their fire for the 
questions.
    So Ted and I are delighted to welcome back Ambassador 
Robert Ford, a good friend of our subcommittee, former United 
States Ambassador to Syria from 2011 to 2014. Ambassador Ford 
served 37 years in the State Department and the Peace Corps, 
having been stationed in Algeria, Iraq, Bahrain, Morocco, 
everywhere. In recognition of his outstanding work and 
distinguished career Ambassador Ford has received too many 
awards and recognitions to name, including the Secretary of 
State's Distinguished Service Award. Thank you for your 
service, Mr. Ambassador. We look forward to your testimony.
    Next Ted and I welcome Faysal Itani, senior fellow at the 
Atlantic Council where he focuses his research on the Syrian 
conflict. Prior to this position, Mr. Itani was a risk analyst 
advising governments, corporations, and international 
organizations operating in the Middle East. Thank you, Faysal, 
and we look forward to your testimony.
    We welcome back Mr. Charles Lister, senior fellow and 
director of extremism and counterterrorism program in the 
Middle East Institute. Prior to this, Mr. Lister was a visiting 
fellow at Brookings Institution in Qatar and a senior 
consultant to Syria track two dialogue initiative. Thank you, 
Mr. Lister, for joining us again.
    And welcome back to Dr. Mara Karlin, associate professor of 
the practice of strategic studies at Johns Hopkins School of 
Advanced International Studies. Dr. Karlin has served in 
national security roles under five U.S. Secretaries of Defense 
and most recently she served as Deputy Assistant Secretary of 
Defense for strategy and force development. What a stellar 
group of panelists. Thank you, Dr. Karlin, for your service as 
well. We all look forward to hearing your testimony, and we 
will start with Ambassador Ford.

 STATEMENT OF THE HONORABLE ROBERT FORD, SENIOR FELLOW, MIDDLE 
   EAST INSTITUTE (FORMER UNITED STATES AMBASSADOR TO SYRIA)

    Mr. Ford. Thank you, Madam Chairwoman. It is nice to see 
you again, and it is nice to see Congressman Deutch again. I 
have come down from Vermont to talk to you today, and it is a 
pleasure to be with this committee.
    Ms. Ros-Lehtinen. This is like the south, right?
    Mr. Ford. Yes, it is warm here. It is a delight to be here 
with the other members of the committee, and I am really 
honored to be here with terrific colleagues. It is a great 
panel. And I think your hearing on Syria is very well timed 
because the Syrian war, which has been going on now for 7 
years, but it is entering a new phase. It is really in a new 
phase. And I think it is a great time to look at what has 
happened and to reassess.
    So let me just quickly say a few things about the way I 
look at the Syrian war. First, I think it is time to think 
carefully about core American national interests in Syria, core 
American national interests.
    First, obviously regional stability. We are concerned about 
the threat that Iran could pose to our friends, notably Israel 
and Jordan. And I want us to focus on that for a minute. We 
have left American forces in eastern Syria. The Iranians are in 
western Syria. Our forces are about 350 miles from the 
Iranians, and it is not likely the Iranians are going to leave 
Syria because we have troops 350 miles away. It is a mistake to 
think Russia is going to push them out. The Russians won't.
    So I think we need high level consultations between the 
United States and especially Israel and Jordan to develop a 
menu of responses about how to deter Iran. And I am happy to go 
into more detail on that.
    Second core interest, preventing terrorists in Syria from 
reaching out and attacking our allies or attacking us. We are 
building up a local security force in eastern Syria. I think it 
behooves this committee, I think it behooves the Congress. You 
have received requests for 430 million for this force in the 
fiscal year 2017 budget request, and you have received another 
$500 million request in the fiscal year 2018 request. I think 
you need to ask what are the benchmarks and what are the 
timelines for setting that force up?
    When I was in Iraq 15 years ago and we were setting up 
Iraqi security forces, with great difficulty, we could never 
define and we could never obtain the benchmarks and timelines. 
If we can't then we are in some kind of indefinite commitment. 
So I think you must ask for benchmarks and timelines.
    Third, Congresswoman Wagner mentioned the use of chemical 
weapons. I think it is important to reestablish deterrence 
against Syrian Government use of chemical weapons. But we also 
must understand the Russians are going to veto anything we try 
at the United Nations. Whatever steps we take to deter come 
outside the United Nations Security Council.
    Fourth core interest, it is less of a core interest 
frankly. Ideally, we would see a better government in Syria. It 
is a low bar with Bashar al-Assad's Government. We see a better 
government that respects human rights that can be held 
accountable and that treats refugees well. I noticed that 
Secretary Tillerson said American forces will stay in Syria 
until there is a national political agreement. I have to tell 
you, I was very surprised to see that. That is a big change in 
American policy.
    And I have to tell you, having worked on this for 4 years, 
long years, the Geneva process is dead. It is moribund at best. 
Geneva cannot be some kind of a diplomatic strategy. It is 
going nowhere. So I think, again, it behooves the Congress to 
ask what is the diplomatic strategy if you want to tie the 
presence of U.S. forces in Syria to a broader political 
solution, what is your diplomatic strategy to get to the 
political solution? Geneva is a city. Geneva is not a benchmark 
on a diplomatic strategy.
    Two other bits of advice for the Congress. First, we are 
now engaged in a stabilization effort in eastern Syria. I have 
to tell you, I don't really understand the difference between 
stabilization and nation building. I think the Congress needs 
again to ask for better definitions, benchmarks, and timelines.
    And finally on refugees, the refugee situation is terrible. 
It is desperate. I think we need more resources devoted to 
refugees, especially communities in places like Lebanon and 
Jordan. We don't want those refugee camps to become future 
recruitment grounds for extremists.
    But I am going conclude with this last thought. Madam 
Chairwoman, I think it is time to reconsider whether or not we 
continue to fund United Nations humanitarian assistance 
programs inside Syria. Bashar al-Assad is gaming the system. He 
is blocking aid to desperate communities in opposition held 
areas, the few that are left, and we are basically subsidizing 
Assad by funding the United Nations humanitarian aid programs. 
I think that too needs a real reconsideration.
    Madam Chairwoman, thank you very much. I look forward to a 
good discussion.
    [The prepared statement of Mr. Ford follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
                    ----------                              

    Ms. Ros-Lehtinen. Wow, you ended with quite a bombshell 
over there. Thank you, Ambassador.
    Mr. Itani. Thank you, Faysal.

 STATEMENT OF MR. FAYSAL ITANI, SENIOR FELLOW, ATLANTIC COUNCIL

    Mr. Itani. Madam Chairwoman, ranking member, members of the 
subcommittee, I am honored by this invitation to speak to you 
about a way forward for U.S. policy in Syria. Now you have my 
written statement already, and it is quite detailed. What I 
will try to do now is bring out some of the key points I want 
to get across, after which I am very eager to hear your 
questions and feedback.
    I personally believe that the five goals mentioned by the 
administration are valid goals. They are worthy goals. But I 
also believe that with the exception of one of them they cannot 
be achieved through the means that Secretary Tillerson 
outlined. In other words, I think our policy suffers from a 
very serious mismatch of means and ends. That is the shortest 
way to put it. The stated ends have been mentioned, but I want 
to repeat them for the sake of my analysis.
    Number one, the lasting defeat of the Islamic State and al-
Qaeda supposedly in the entire country. Facilitating the return 
of refugees. Depriving the regime of weapons of mass 
destruction, that is actually what it is. And the last two 
which are the most ambitious, which is weakening Iran and Syria 
and ending the Civil War in Syria by securing Assad's departure 
from power.
    Now, to achieve all this, I want to highlight the three 
tools that were mentioned. The first tool was limited U.S. 
military deployment whose duration was tied to the achievement 
of these five goals. The second are the stabilization 
operations, which I presume mean restoring basic security and 
services. And third is aggressive diplomacy and finally a U.N.-
backed election process that would get rid of Assad.
    I believe these tools can accomplish one of the five goals, 
which is to keep ISIS down in eastern Syria so long as we are 
there. After that I am not sure what happens. And as for the 
others, al-Qaeda does not operate where we are in Syria or 
anywhere adjacent to us. It operates in areas that are 
contested by Turkey, the regime, Russia, Iran, and a slate of 
other actors. And those are things we explicitly said we don't 
want to get involved in, so much for al-Qaeda.
    Large scale refugee resettlement is not going to happen in 
Syria without an actual aggressive reconstruction project in 
the areas we control. Secretary Tillerson has explicitly, and 
others, have ruled that out actually already. And Assad, you 
know, Assad is not going to give up his weapons of mass 
destruction, much less willingly leave power unless there is a 
military threat to his rule, he is forced out. He is not going 
to do it through negotiations, and he is not going to do it 
through elections. Iran cannot really be meaningfully weakened 
in Syria without a military escalation either. The Iranians are 
deeply committed, and they have been building assets and 
equities including tens of thousands of loyal fighters in Syria 
over the past few years.
    Now, the common military thread that runs through this--the 
common rather missing thread that runs through this, is 
military action or military force. I recognize that after 7 
years of war partly because we made mistakes, partly because 
the situation evolved that is no longer very feasible or is 
much more unattractive than it ever was.
    So if we leave that aside it means we have set goals in 
Syria that we actually cannot meet full stop. And that is a 
dangerous situation for us to tie ourselves in if we have 
troops on the ground in Syria and we have committed to those 
outcomes.
    Now, one way out of this, if military force is not an 
option, is to revise the goals. And I believe we should do that 
at the very least. Those goals should be much more humble. The 
first goal is to protect the territory we hold. I think the 
United States Government needs to be very clear and the White 
House needs to be very clear that these troops are going to 
come under attack eventually. We are not going to be allowed to 
sit down in northeastern Syria as long as we want and dictate 
the methods and the timing of the conflict.
    Second, so long as we are there and we hold this piece of 
land we need to engage in meaningful governance development and 
reconstruction beyond basic needs. Why? Because refugees are 
not going to come back otherwise. Because that is actually a 
potent counterterrorism tool if it works and is done right. And 
because I still believe that there is some value in propping 
something up in part of Syria that is semisuccessful and isn't 
Assad. I think that still has some value for the long-term 
future of the country.
    Goal number three should be supporting our local partners 
against ISIS. And yes, that does include the Kurds that have 
fought with us, but it also includes, and should include, a 
more powerful influential era of component.
    And that feeds into what I think ought to be our fourth 
goal as difficult and unsavory as it is, which is our 
restoration of our relationship with Turkey. And that doesn't 
mean letting the NATO ally do whatever it wants, but it does 
mean putting Syria's diplomatic effort into getting involved in 
the conflict between them and the Kurds and diffusing that and 
from that point using that as a starting point for repairing 
our alliance. Thank you.
    [The prepared statement of Mr. Itani follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
                      ----------                              

    Ms. Ros-Lehtinen. Thank you very much.
    Mr. Lister?

  STATEMENT OF MR. CHARLES LISTER, SENIOR FELLOW, DIRECTOR OF 
 COUNTER-EXTREMISM AND COUNTER-TERRORISM, MIDDLE EAST INSTITUTE

    Mr. Lister. Madam Chairwoman, Mr. Ranking Member, members 
of the committee, thank you very much for this opportunity to 
speak to you today.
    Nearly 3 weeks ago Secretary of State Rex Tillerson laid 
out a vision in which U.S. interests would be secured by 
achieving five grand objectives in Syria. Unfortunately, his 
speech raised many more questions than it provided answers. 
Today there is simply no available path to achieve the stated 
objectives and no actual strategy has emerged.
    Nearly 7 years of conflict has produced countless threats 
to American interests, including multiple wars, militarizing 
hundreds of thousands, fueling terrorism on an unprecedented 
level, normalizing chemical warfare, sparking huge refugee 
flows that have cripple neighbors and destabilized Europe. It 
has propelled Russia back to the Middle East and empowered 
Iranian expansionism like never before.
    Contrary to conventional wisdom, Syria is also not winding 
down. The country remains mired by multiple conflict fault 
lines, none of which are close to resolution. The intensity of 
fighting may have receded, but the mechanism used for doing so 
known as deescalation zones whereby Russian design intended to 
allow continued lower level violence. As a result, the regime 
has continued to indiscriminately bomb and methodically 
recapture strategically important territory strengthening its 
hand further.
    The Trump administration's cessation of support to the 
entire vetted opposition last summer was a vitally important 
cog in this Russian design. By lending its support to a Russian 
initiative designed to strengthen the regime, the Trump 
administration has directly abetted Assad's survival, Iran's 
expansion and threat to Israel, and continued civilian 
displacement.
    With ISIS' caliphate all but gone Syria's various root 
causes of conflict are now re-erupting. Fighting is 
intensifying, and battle fronts are reopening. Within this 
environment the U.S. should consider four policy avenues.
    First, northeastern Syria. Here, we must significantly 
expand stabilization in areas liberated from ISIS. The task 
ahead is huge, and it is already taking too long. We must 
urgently raise more funds for stabilization and reconstruction 
to encourage refugee and IDP returns to establish a form of 
governance superior to the regime and to prevent further 
extremism.
    Doubling down here does carry risks. Our SDF partners 
remain dominated by the YPG, which is unavoidably linked to the 
PKK, a designated terrorist organization and a direct threat to 
our NATO ally Turkey. While it might be impossible to sever the 
YPG's links to the PKK it ought to be possible to limit its use 
of PKK symbols and rhetoric and to expel non-Syrians from its 
ranks.
    The U.S. should also engage with Ankara and the YPG to 
negotiate a mutually acceptable detente potentially within a 
broader Turkey PKK ceasefire. The U.S. should also continue to 
train and Arabize the SDF at ground and command levels. This 
strategy also risks confrontation with pro-regime forces who 
will perceive our troops and the SDF as threats and against 
whom they will inevitably seek to conduct repeated probing 
attacks. The U.S. should respond to these clearly and 
defensively.
    Second, terrorism. Although we dealt a hammered blow to 
ISIS, it remains active in several areas of Syria. We must 
sustain our mission and neutralize any signs of ISIS 
reemergence. We must also clearly accuse the regime of its 
shortcomings in confronting ISIS and where provable highlight 
its new role in providing it with space to operate anew.
    While we fought ISIS, al-Qaeda and like-minded groups have 
thrived. Former al-Qaeda affiliate HTS now commands roughly 
15,000 fighters and dominates the northwest. HTS is focused on 
localism and controlling territory makes it a dangerous spoiler 
whose existence presents a safe haven for global jihadists. 
Alongside HTS then is an even more dangerous reality, a tight-
knit covert circle of two to 300 veteran al-Qaeda loyalists 
dedicated to the global antiwest cause. This looks worryingly 
similar to the al-Qaeda Taliban relationship before 9/11.
    HTS' real vulnerabilities lie in its lack of popularity and 
credibility. So confronting it is about out competing its 
ability to exert ground influence. There are things we can do 
to better equip locals to sweep the rug from under HTS' feet 
and to create conditions in which kinetic opportunities may 
later become available.
    Third, Iran. Although diminishing Iranian influence is 
unrealistic, the U.S. can constrain its ability to gain further 
and contain its threat to Israel and Jordan. To achieve the 
latter we should build a network of self-defense forces in 
southwestern Syria using our preexisting relations with vetted 
southern opposition groups. These forces would defend against 
any Iranian move closer to Israel and Jordan while also 
blocking further regime consolidation.
    We should also continue escalatory sanctioning of Iranian-
affiliated bodies and figures involved in illegal and terrorist 
activities in Syria. Militia groups links to the Quds force 
should be designated and excluded from internationally 
negotiated ceasefires. We should also consider joining Israel 
in conducting strikes on flagrant threats or strategic weapons 
transfers by Iran to groups like Hezbollah.
    Fourth, chemical weapons. The U.S. has positioned itself as 
an arbiter and enforcer here since 2013 with mixed record. 
Continued chemical weapons use must be met with measured but 
escalatory consequences, particularly against Syria's Air Force 
and chemical weapons research facilities. More sanctions should 
also be deployed and further chemical use exploited as leverage 
within broader political dynamics.
    To conclude, if anyone believes that Bashar al-Assad is the 
key to stabilizing Syria they have learned literally nothing 
from the country's recent history. Accepting today's status quo 
will also not stabilize Syria. Trumpeting grand goals without 
the means to achieve them guarantees failure, and giving up all 
together only ensures an eventual need to return to confront 
the threats that will result.
    While there is indeed no panacea for Syria there are 
options available to protect our existing stakes, to defend 
against threats and to shake interim solutions and arrangements 
that protect our vital interests.
    Thank you.
    [The prepared statement of Mr. Lister follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
  
    
                              ----------                              


  STATEMENT OF MARA KARLIN, PH.D., ASSOCIATE PROFESSOR OF THE 
PRACTICE OF STRATEGIC STUDIES, SCHOOL OF ADVANCED INTERNATIONAL 
  STUDIES, JOHNS HOPKINS UNIVERSITY (FORMER DEPUTY ASSISTANT 
    SECRETARY OF DEFENSE FOR STRATEGY AND FORCE DEVELOPMENT)

    Ms. Karlin. Chairman Ros-Lehtinen, Ranking Member Deutch, 
and distinguished members of the subcommittee, thank you for 
the opportunity to discuss Syria with you today.
    In 2012, 1 year into the Syria uprising, I testified before 
the subcommittee and I said the following: The United States 
knows what it does not want in Syria, but getting to what it 
does want the end of the Assad regime will be messy, difficult, 
and unsatisfying. The outcome in Syria is not evident today, 
but I can say with some confidence how it will not end. It will 
not end with Bashar al-Assad voluntarily stepping aside or 
choosing exile. It will not end with him making sufficient 
reforms to enable a transparent and free Syrian state. Let me 
be clear, continued oppression and violence in Syria will 
continue.
    Looking back, it appears that grim assessment may have even 
been too bright. The situation in Syria today is a tragedy of 
epic proportions, which can make it difficult to take a sober 
view. Nevertheless, such a view must acknowledge three crucial 
dynamics going forward.
    First, Assad won his war to stay in power. Granted, he 
rules a challenging, fragile, and fragmented Syria, one where 
violence will not cease in the coming years, nor will efforts 
to unseat him.
    Second, the situation in Syria is a proxy war and a much 
larger geostrategic game, and any assessments of the dynamics 
and attendant policy recommendations must take that into 
account. Much like Lebanon's Civil War a nasty internecine 
conflict with countless casualties that lasted 15 years, the 
situation in Syria today is further complicated by a dizzying 
array of actors pursuing divergent interests in partnership 
with competing groups. The roles of states like Russia, Iran, 
and Turkey and their increasing collaboration stand out.
    And third, the easy part is over. A number of disparate 
parties involved in the Syria conflict internal to Syria 
regionally and globally largely agreed that ISIS must be 
crushed. While in some ways the next phase of countering ISIS 
militarily as it goes underground and politically to ensure a 
capable successor does not fill its place will be tougher. This 
emphasis on militarily defeating ISIS enabled these powers to 
put tricky issues like reconciliation, rebuilding, and 
governance on the back burner. So the fundamental debate for 
Washington today is whether to focus on counterterrorism or 
broader geopolitical affairs in Syria.
    In recent years the United States overwhelmingly and 
deliberately prioritized Syria as a counterterrorism problem. 
This narrow focus by its very nature informed how the United 
States conducted its role in the conflict and with whom it 
chose to cooperate. It facilitated a very successful counter 
ISIS effort, but this approach had other implications, namely 
that the United States effectively tolerated Assad's continued 
rule and largely condoned Russian and Iranian efforts.
    My uppermost concern is security. As ISIS continues to lose 
territory the battle space in Syria is shrinking, increasing 
the risk of confrontation among entities there. The U.S. 
military's mission in Syria has been alternately described by 
senior U.S. officials as present and focused on bringing 
stability, dangerously vague terms.
    Is it focused only on finishing the fight against ISIS? How 
much will it go after al-Qaeda remnants? To what extent is it 
there to push back on Iran, to fight the Assad regime? To 
train, equip and advise violent nonstate actors as they seek to 
do so? What about the Russians?
    Like the U.S. Marines sent back to Beirut in 1982 with a 
similarly unclear mission, the residual U.S. force presence in 
Syria may be just enough to get us into trouble but unlikely to 
accomplish very much. We need clarity, not just for the 
American people but frankly for our adversaries, our 
competitors and our partners in Syria, too.
    Whom is the U.S. military willing to fight? For whom is it 
willing to put American lives on the line? Research I conducted 
for my book, ``Building Militaries in Fragile States,'' suggest 
findings that are translatable to U.S. collaboration with 
violent nonstate Syrian actors. Efforts to train and equip 
these groups are fundamentally political, not technical 
exercises. Building an effective fighting force requires more 
than supplying training and equipment, which has been and will 
continue to be insufficient to meet our declared political 
goals.
    A narrow approach distance from key political issues waste 
time, effort, and resources. It is fundamentally flawed. These 
forces depend heavily on legitimacy, so transforming them 
requires the United States to become deeply involved in their 
sensitive military affairs.
    Supporting violent nonstate actors in Syria requires U.S. 
policymakers to have a clear-eyed assessment of the goals and 
likely outcomes of U.S. military assistance. Simply put, the 
United States must be cautious of our tactical and operational 
actions driving policy and blinding us to the geostrategic 
picture.
    As the subcommittee's members examine the way forward in 
Syria, I urge you to ask the following questions of the 
Departments of State and Defense. Does U.S. policy toward Syria 
prioritize counterterrorism or larger geopolitical challenges? 
What is the U.S. military doing in Syria? Why and on what 
basis? What is its mission, rules of engagement, red lines, and 
how are these being communicated to Russia, Iran, the Syrian 
regime, Hezbollah and other violent nonstate actors, including 
U.S. partners. And what is the nature of the U.S. military's 
relationship with and commitment to violent nonstate actors in 
Syria.
    In conclusion, I thank you for the opportunity to appear 
before you today. I look toward to answering any questions you 
may have.
    [The prepared statement of Ms. Karlin follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                       ----------                              

    Ms. Ros-Lehtinen. Thank you, Dr. Karlin, and thank you to 
all of our excellent panelists. And we will begin the question 
and answer period of our hearing. And our side will begin by 
with Mr. Mast of Florida.
    Mr. Mast. Thank you, chairwoman.
    You know, some great comments from all of you. Great 
analysis on the unlikelihood of a peaceful transfer of power 
from Bashar al-Assad, and that is where I want to begin is from 
that point. Assuming we can get to that point at some time in 
the future, what would it take to have a post Assad Syrian 
Government that would back U.S. regional policy goals in the 
Middle East, that would back support for Israel, that would 
oppose Iran, and that would oppose Hezbollah?
    This is open to any of you. What do you think--what 
groundwork do you think we need to be laying in place for that?
    Don't all jump at once.
    I will ask Dr. Karlin because I thought you had a great 
analysis. I would love to hear from you.
    Ms. Karlin. Thank you. You are asking a really difficult 
question. I think that is why you met some looks on our side.
    Look, 6, 7 years ago when this conflict broke out this was 
a real point of debate. A lot of people said maybe you could 
just push Assad to the side. People around him might have a 
different vision for Syria. I, as I noted, was rather 
skeptical, as were potentially some of my fellow panelists. 
Bottom line, you are talking about not just taking Assad out of 
the picture, and that is not going to happen willingly, but 
everyone around him.
    I think the vision that you are outlining is what one 
should aspire to, but it is decades and decades off, and were I 
to think about policy prescriptions to try to get us there, 
they would probably start with kind of very local state 
building enterprises.
    Mr. Mast. So I am going to move just a little bit in that 
direction of getting to that goal and ask if you could look at 
the forces that are operating throughout that region, whether 
it be Iran, whether it be Hezbollah, whether it be the Assad 
forces, whether it be Russia, how would you rank them in terms 
of threat against the United States of America, and which one 
of those dominos would you look to be knocking on first?
    Mr. Itani. Thank you for the question. To start with, the 
kind of Syria you are talking about, one that would be friendly 
to Israel, hostile to Iran and Hezbollah, the quick answer to 
that is any Syria that arises out of a political deal with the 
opposition is not going to be friendly to Hezbollah and Iran, 
definitely not. That is the easy part.
    For it to be friendly to the Israelis, I don't think there 
are any Arab countries as such that are really friendly to the 
Israelis, maybe Jordan to a certain extent. Syria is not going 
to be that way, but that doesn't mean it is going to be part of 
the Iranian regional chess board in strategy and a front line 
against the Israelis like it is right now. I think the Syrians 
are preoccupied and will be preoccupied with other things to be 
honest with you. So that is my quick answer to your question.
    Mr. Ford. Congressman, let me just directly address your 
question. It is easy for me to imagine that Iranian 
revolutionary guard backed militias in Syria, as well as Syrian 
intelligence services would attempt unconventional attacks 
against U.S. personnel on the ground in Syria. In fact, I 
expect it, frankly. They may choose the time based on other 
issues whether in Iraq or elsewhere. I doubt very much that the 
Russians themselves will launch a direct attack on American 
forces in Syria. But all three countries, Iran, Syria, and 
Russia want American forces out of Syria.
    Mr. Mast. Mr. Lister, you spoke a good deal on the Kurds. 
My question is open to all of you in terms of a more national 
Kurdistan in its entirety. Do you believe that that would be a 
draw for Kurds across the region coming from Turkey into a 
Kurdistan coming from Iraq, coming from Syria, and do you think 
it would draw all Kurds from the region and provide a 
stabilizing force in terms of centralizing Kurds throughout the 
region?
    Ms. Ros-Lehtinen. And we will allow just a short answer so 
we can get to the other panel members.
    Mr. Lister. With time on our side I am sure other people on 
the panel probably want to say something on this, too. My 
personal position is much as the project that has been 
established in Kurdish majority areas of northeastern Syria has 
been an attractive proposition to Kurdish populations elsewhere 
in the region in Turkey and Iraq and elsewhere.
    There are certain nationally unique dynamics that are in 
place, as well, so no, I don't think if the United States or 
any other country was to establish some kind of Kurdistan in 
Syria that it would become something that Kurds from all across 
the region would suddently start flowing to. I don't think so.
    Having said that, it has demonstrated that when there is a 
threat to certain regions in Syrian Kurdish areas, such as in 
Afrin right now, we have seen Kurds from Iraq and Kurds from 
Turkey travel to Syria to defend Afrin. But when I say 
``Kurds,'' we have got to be really careful here about not 
generalizing. It is specifically Kurds who are supportive of 
the YPG and the broader PKK vision for breaking down national 
boundaries, having no state borders, and launching this new 
kind of idealogical vision for governance.
    You are not seeing supporters of Kurdish national parties 
in Iraq, in Turkey, or in Syria joining along with us. In fact, 
they all stand in opposition to it. So it is not a unifying 
Kurdish vision.
    Mr. Mast. Thank you, chairwoman.
    Ms. Ros-Lehtinen. Thank you so much.
    Mr. Deutch of Florida.
    Mr. Deutch. Thank you, Madam Chairwoman, and thanks to the 
witnesses for the great testimony. I think I heard unanimous 
recognition and concern from the panel of Iran's increased role 
in Syria, and despite the administration's strong rhetoric on 
Iran the Trump administration's strategy so far appears to have 
been to clear territory from ISIS and then troublingly to let 
Russia, Iran, and Hezbollah fill the void.
    Ambassador Ford, you pointed out that American forces are 
350 miles from the Iranians. Dr. Karlin, you mentioned in your 
testimony that with the help of Hezbollah Iranian power 
projection across the Middle East has skyrocketed. You also 
said Iran has demonstrated an unwavering commitment to its 
mission in Syria, increasingly purchasing another strategic 
border with Israel. All of this is really concerning.
    One of the objectives for Syria according to Secretary 
Tillerson is to diminish Iranian influence. Mr. Itani, you 
talked about the mismatch of means and ends. I don't know if 
that is one place where that is true.
    And, Mr. Lister, you talked about striking weapons 
transfers perhaps to send a message. The question is, really 
what should the administration be doing to push back against 
Iranians' projection of power, and could Syria be co-opted by 
Iran and its proxies as we have seen in Lebanon where Hezbollah 
has increased its political and military stranglehold on that 
country?
    Mr. Lister. I would start by answering the latter part of 
your question, and I would say we are pretty much already in 
that direction. I would say one reason why the Russians seem to 
be rushing their own political efforts is because they realize 
that on the ground they are fighting a losing battle in terms 
of the Iranian influence.
    Without getting too granular I would point you to a number 
of incidents that have happened in the last week or 2 where the 
Turkish military with Russian permission has entered areas of 
northern Syria in order to establish a deescalation outpost. 
Each time they have done that with Russian permission, they 
have been attacked by Iranian-backed militias. There are very 
clear divergency here between Russia and Iran on the ground. 
They are seeking the same objectives, but the tactical 
decisions are different.
    So I think we are already shaping in that direction. Iran 
is using the Hezbollah model in Iraq already, and they are 
doing exactly the same thing in Syria. And I do think that is a 
danger.
    Is that something the United States can roll back? No, it 
isn't. As I said in my oral testimony, I think it is something 
we can seek to contain. And if protecting Israel is as serious 
an interest as the Trump administration says it is, then there 
are certain things that we can do to be able to deter and 
contain that threat.
    Mr. Deutch. All right. So, what should be we doing? 
Ambassador Ford, there is obviously much discussion among 
policymakers about Iran's desire to build a land bridge from 
Tehran to Beirut. Right? Everyone wants to talk about the land 
bridge, how far have they established the land bridge. You said 
in your testimony the Iranians don't need a land bridge from 
Iran to Lebanon for many years, they just use the Damascus 
Airport.
    So the question is what can we do if we are 350 miles from 
the Iranians, and you suggested that ultimately they pose a 
threat not just to Israel but ultimately our troops are likely 
to be on the receiving end of some sort of attacks by Hezbollah 
or IRGC, what do we do? What does the administration do to 
match its rhetoric?
    Mr. Ford. Well, two things, Congressman. First, we need to 
recognize that short of going all out war into Syria, and by 
the way with a risk of dramatic escalation with the Russians in 
that process, we are not going to be able to get the Iranians 
to leave Syria. When I was Ambassador there in 2011 there was 
an Iranian presence. Not much bigger now, but the Iranians have 
long been there, and they don't need as I have said in my 
written testimony they don't need a land bridge, they don't 
need a road. They fly things into Damascus Airport. I don't 
think it is the policy of this administration to shut down 
Damascus Airport. Were we to do so, it might change the 
calculations in Tehran. I do think there are two things we need 
to----
    Mr. Deutch. Ambassador Ford, I am sorry, but I want to 
follow up on that. Are there--I understand that it is not the 
policy to shut down the airport. Are there any deliveries that 
Iran would be making that should, as Mr. Lister suggested, that 
should prompt our military to take action?
    Mr. Ford. Well, first more than just us sleeping in, the 
Israelis often strike themselves, and a retired Israeli Air 
Force general commented within the last 6 months after his 
retirement that the Israelis had struck hundreds of times. So 
the Israelis are already operating this way.
    It makes sense to me to have intense behind closed doors 
discussions with the Israelis about what they need because 
this, after all, is first and foremost their problem. I can 
imagine a series of things that we could do. That might be if 
the purpose is to deter Iran from attacking Israel then perhaps 
we should have troops in Israel instead of eastern Syria. 
Perhaps we need to rethink what kind of peacekeeping forces up 
on the Golan, separating Israeli defense forces from these 
militia fighters that we are talking about and the Syrian Army.
    Change the mandate of the United Nations force. Replace the 
United Nations force with something else we negotiate with the 
Russians and with other members of the international community. 
Maybe we need to do what Charles suggested and set up a proxy 
force. What I am saying is that the presence of U.S. forces far 
away is not going to address this problem.
    Mr. Deutch. Thank you, Ambassador Ford.
    Ms. Ros-Lehtinen. Thank you so much.
    Mr. Itani. If I may, may I add something?
    Ms. Ros-Lehtinen. Well, we would love to hear from you, 
Faysal. But, you know, we are in recess, but they already 
buzzed that we are going to be in session in just a few minutes 
and we have got Mr. Kinzinger, Mr. Cicilline, Mr. Donovan, Mr. 
Connolly, Mr. Chabot, and Mr. Lieu, so perhaps if we can keep 
our question and answer period less than 5 minutes that would 
be great.
    Mr. Kinzinger. I will do my best.
    Ms. Ros-Lehtinen. Thank you. Go to it.
    Mr. Kinzinger. First off, again, thank you all for being 
here.
    In my opening statement I said that this was predictable. I 
kind of lied. I think it has gotten way worse than what we even 
predicted. We knew it was going to be bad. But I remember back 
in 2013 colleagues from both sides of the aisle, both sides 
share blame, in this came and said we can't do anything in 
Syria or it is just going to--you know, look at Libya. And, 
frankly, as bad as Libya is it is better than Syria right now 
sadly.
    But we are in the sixth year of this now, and, Mr. 
Ambassador, I am sure you are obviously very familiar with the 
number of refugees, and one of my biggest concerns I think when 
we look at--it is entirely possible in 30 years if you go 
forward people will look back at this time period as actually 
World War III. It will be a low grade version of that, it is 
not like I or II in terms of the intensity, but it is a 
worldwide conflict.
    And one of my biggest concerns is not just alleviating the 
issue in Syria. That is a problem. But beyond that it is 
the<greek-l>a deg. 7- and the 8-year-olds in refugee camps 
right now that are seeing a world that has left them behind 
that aren't getting educated, that aren't learning, that aren't 
shown that they have hope and opportunity, and that is the best 
recruiting ground for the next generation of ISIS or the next 
generation of al-Qaeda.
    They will be easy recruits, frankly. And so if we look at 
this as a generational struggle, which I do, I think for the 
rest of my life we will be fighting radicalism. We have to I 
think take this issue very seriously.
    So, Mr. Ambassador, given your experience what type of 
impact can we have going forward in Syria and the surrounding 
countries to ensure that we give these kids a chance at a 
better life, what kind of programs and stuff. And if you want 
to keep it fairly brief I know that is a long question, but I 
do have one other issue I want to get to.
    Mr. Ford. Very briefly, Congressman Kinzinger, the United 
Nations and the partner agencies that work with it, whether it 
be Save the Children or the International Rescue Committee, 
others, Doctors Without Borders it is a long list, they can do 
a lot. They can do a lot if they have the resources, but the 
resources have been on a downward slope lately.
    There is an element of donor fatigue, and that is why I 
said I think we need to increase that assistance to refugees. 
It costs money, I understand that, but precisely for the reason 
you mentioned about not having these refugee communities as 
future recruitment grounds, it has to be done. If the Americans 
lead on this, lead on this, we will get other countries to 
follow.
    Mr. Kinzinger. And I wish we could budget differently 
because I think investing in a kid's education is way cheaper 
than a 500-pound GBU in the future.
    And let me ask on the chemical weapons. So on the broader 
issue just worldwide holding the counter proliferation we 
obviously know the Assad regime destroyed some of their 
weapons, but I believe they are reproducing sarin gas, or are 
using chlorine gas, we know this.
    I think the President bravely took out a Syrian airfield, 
but it is not enough. Obviously it didn't send a strong enough 
message to Assad and to the Russians that we are serious about 
this, and, you know, we are finding out that they are doing 
this again to another extent.
    So I think we need to bring the full force of the United 
States and the world community to bear on this issue, and it 
doesn't mean necessarily overthrowing the Assad regime, though 
I would love to do that. Even if we ground Assad's Air Force 
permanently, crater his runways, take out his helicopters and 
make it clear that the delivery of chemical weapons the cost to 
you will be far greater than any benefit you can gain 
psychologically or otherwise would be good.
    So both for the Ambassador and Mr. Lister in your opinion 
what would be the appropriate response to his continued use of 
chemical weapons in defiance of the President?
    Mr. Ford. Just very briefly, Congressman.
    It is imperative, if we want to stop the Syrian Government 
from using chemical weapons, that we make them feel pain 
militarily. And targeting the Syrian Air Force is certainly one 
place they would feel pain especially because with their troop 
shortage, they need air power more than some other governments 
in their civil wars.
    Mr. Kinzinger. And I think, Mr. Lister, I will let you 
answer. But let me just say, I think it is clear. We are not 
saying if we respond for his use of chemical weapons we are 
going to go and solve the Syrian conflict. We are not saying 
that. What we are saying, though, is we are going to destroy 
his ability to violate world norms since World War 1.
    Mr. Lister.
    Mr. Ros-Lehtinen. Thank you very much, Adam. But I just 
worry about----
    Mr. Kinzinger. Go ahead.
    Mr. Ros-Lehtinen. Thank you so much.
    Mr. Kinzinger. You owe me 40 seconds.
    Ms. Ros-Lehtinen. You are a gentleman and a scholar.
    Mr. Cicilline.
    Mr. Cicilline. Thank you, Madam Chairman.
    As I indicated in my opening statement, I am very concerned 
about Turkey's recent attacks in Afrin. I want to acknowledge 
Dr. Othman, one of my constituents, who has been working very 
hard to raise this issue who continues to have family in Afrin. 
And this has resulted in civilian deaths. I have introduced in 
the record some photographs of children that were struck and 
killed. It has resulted in the displacement of 16,000 people, 
and the administration has said very little about this ongoing 
offensive. And what they have said has been very restrained.
    And so, Dr. Karlin, I would like to start with you. Can you 
speak a little bit about the dynamics here? What is Turkey 
trying to achieve? Why is the administration allowing an 
offense against some troops that we have trained and that have 
been so helpful in our fight against ISIS? What is the impact 
of this on our allies' ability to make progress against ISIS? 
And shouldn't we be doing more to protect Kurdish civilians and 
particularly since they have been such great partners with us 
in this fight against terrorism?
    Ms. Karlin. Thank you for this question, sir.
    For Turkey, Kurdish issues are existential. And the 
challenge here, of course, is there are two different apertures 
through which you can view what is going on. You can view it in 
terms of countering ISIS, right? A very Middle East perspective 
by which you would say, we should work with any violent 
nonstate actor that can effectively weaken ISIS. And, indeed, 
we have seen that the Kurdish groups in Syria are pretty good 
at this. You can view it through another aperture, which is 
NATO, counter Russia, Article V. A much bigger geopolitical 
view. From that perspective, indeed, as you are going forward, 
then your cooperation with these groups might actually need to 
decline. It all depends on which priority.
    I think one of the challenges right now, and I would urge 
as you are speaking to the State and Defense Departments, that 
you engage them on this issue, is how do we actually see the 
Syria conflict going forward? Is it still a counter terrorism 
problem, or is it a broader problem where we are dealing with 
Russia where we are actually looking at issues with Europe 
whole, free, and at peace, with looking at NATO as an entity?
    Or it is quite possible, you know--and there is an academic 
debate, what happens if two NATO allies both declare Article V 
on one another? That is entertaining in an academic sense. It 
is actually quite dangerous in a practical sense. So it is, as 
you can imagine, understandably very difficult for these groups 
to have a real effect these days when they are under attack by 
the Turks.
    But it is also important from a Washington perspective that 
we figure out going forward what is our real priority. And I 
might add from a defense perspective, this is an area in 
particular we are thinking about, because the Defense 
Department divides these regions up. And I will just note that, 
in recent weeks, I have continually heard statements from the 
commander of Central Command as opposed to the commander of 
European Command about how to think about what is going on 
there. That invariably is conveying a certain perspective.
    Mr. Cicilline. Thank you. And I just want to go to Mr. 
Itani. You mentioned in your written testimony that 
deescalating this Turkish-Kurdish situation is a critical 
priority. How do we do that?
    Mr. Itani. So trace how we got to this point, and then 
rewind it a bit. We started by aligning with a group that they 
see as their mortal enemy. Fine, rightly or wrongly, I could 
see the military rationale. Now the ISIS threat has become less 
urgent. So this is a chance, an opening, for us to shift things 
around a bit and recalibrate the relationship. It doesn't mean 
letting them do what they are getting away with in Afrin, I 
think that is wrong too.
    But the truth of the matter is we are letting them get away 
with it because they let us get away with all the other stuff. 
So we don't really have any more leverage as long as we haven't 
changed or indicated that we want to change the balance of 
power in the North. Once we indicate that, then I think we are 
in a position to broker and put mutual pressure on the Kurds 
and the Turks to reengage in peace talks.
    Not too long ago, this was a serious prospect, and then it 
crumbled very quickly. But I think ultimately, if we want to 
make our presence in Northeast Syria tenable, we need to get 
the Turks at least as passive accepters of the situation.
    Mr. Cicilline. I will yield back that additional 40 
seconds. But I hope that we do that, you know, consistent with 
the obligation that we have to the Kurds who have been so 
helpful in this fight.
    Thank you, and I yield back.
    Mr. Ros-Lehtinen. Thank you, Mr. Cicilline.
    Mr. Donovan of New York.
    Mr. Donovan. Thank you, Chairman.
    One of the disadvantages, or what some people take 
advantage of, being so low on the totem pole here, is most of 
the questions have already been asked.
    But let me just follow up on two things. Adam asked about 
the stockpile of chemical and biological weapons. Mr. 
Ambassador, you were talking about taking out their military. 
With the proliferation of these chemicals and biological 
warfare elements in places like North Korea, they could easily 
be purchased as well.
    Besides taking out the military, do economic sanctions to 
strangle Syria's ability to purchase these horrific weapons, 
are they also successful.
    Mr. Ford. I want to be clear what I said Congressman. I do 
not believe we can take out the stockpile. We can't. The only 
thing we can do is establish deterrence against the use of that 
stockpile.
    Frankly, Syria has so many sanctions on it imposed by both 
Congress and by administrations dating back to the 1970s, when 
I was the American Ambassador and I looked at this, it was a 
real spaghetti. So Syria's ability to buy things legally 
through the regular market is already severely hindered. That 
is why they do so much of their trade with Russia and Iran.
    I think the real question with respect to the chemical 
weapons issue is how do we sustain deterrence against their use 
by the Syrian Government.
    Mr. Donovan. And because I think they might be calling the 
votes now, let me just ask you a follow-up also on the Syrian 
children that Adam brought up.
    You spoke about donor fatigue. And we find that throughout 
the world. I think America is a passionate and a compassionate 
Nation who likes--who wants to come to the aid of people who 
are in need but wants to see where that need is going to end at 
some point. I know this is difficult.
    Is there an end to this.
    Mr. Ford. There is certainly no end in the immediate 
prospect. I want to underline that. I think all of us have said 
that. There is no end in the immediate prospect. I think over 
time the problem will grow less severe for two reasons. Number 
one, as some parts of the country grow more peaceful--I didn't 
say democratic, I said peaceful--some refugees will go back 
home. Farmers will go back to their lands because it will be 
safe for them to farm again, hopefully. As cities are gradually 
painfully slowly rebuilt, some people will go home. Not 
everybody. But there will be less of a demand.
    The second factor will be especially in countries like 
Turkey and Jordan, what steps will they take to integrate the 
remaining refugees into their broader society. That will be 
exceptionally difficult, especially for Jordan and also for 
Lebanon. In fact, right now both countries are trying to kick 
Syrian refugees out, which is against international 
humanitarian law, in any case.
    The Turks have gone some distance, and I saw a report that 
Jordan is beginning to give work permits to some Syrian 
refugees. And it is going to be that kind of thing.
    But, Congressman, frankly, this is going to take years and 
years and years.
    Mr. Donovan. Thank you.
    Madam Chair, I yield the remainder of my time.
    Mr. Ros-Lehtinen. Thank you so much, Mr. Donovan.
    Mr. Schneider of Illinois.
    Mr. Schneider. Thank you, Madam Chairman. And I will be 
quick. I wish we had much more time, because this is one of the 
most impressive, most intelligent panels I can recall.
    You have all touched on the fact that--or touched on the 
United States' goals, strategy, and reflected on our capacity 
for commitment to persist until we achieve our goals. But I was 
wondering in the context, and I may ask you just to submit this 
answer in writing, because it is a big question.
    But Russia, Turkey, Iran are in this space with their own 
goals, strategy, and different commitments to stay to succeed. 
And they are not going to act--not let us take our steps 
without reacting accordingly. So how will they respond to us? 
And I will leave that question, because I know we are in 
urgent--and say if you have a chance to respond, I would be 
grateful.
    And I yield back.
    Mr. Ros-Lehtinen. I think that it is still all right.
    Mr. Schneider. Okay. Then I will ask you for your answers.
    Dr. Karlin.
    Ms. Karlin. Yes, sir. Thank you for that very big question, 
which I will not do service to in 30 seconds. That said, so I 
think the Iranians right now are looking with a very curious 
eye. You have a more declared antagonistic posture from the 
administration. And I think in Tehran they are trying to figure 
out how will this actually get manifested right now. So they 
will be watching very closely what are the steps the United 
States takes?
    So in regard to Congressman Deutch's question earlier about 
the sorts of things one might do, well, there are--to the 
extent the United States wants to be more serious. We could do 
things like naming and shaming the Iranians for the sorts of 
steps they are taking. We could start pushing on flight 
searches like we did just after the 2006 Israel-Hezbollah war. 
We could even take steps like we did in Iraq where we started 
to arrest their affiliates. We saw this in 2007 in Iraq with 
Hamid the Mute.
    So I think the Iranians right now are waiting to watch. I 
think the Turks and, you know, we understand the situation 
obviously with Turkey which really has been turning away from 
the NATO model. We have seen it with their arms' purchases with 
the Russians, et cetera. I think the Turkish view is very much, 
Hey, America, what is your priority? Is it NATO or not.
    And as we are seeing I think from a lot of our European 
allies, they want it to be NATO. Understandably, that is valid. 
For Russia this is a bigger game. And if you read the national 
defense strategy that Secretary of Defense Mattis published 
about 2 weeks or so ago, the big emphasis in there is that the 
U.S. military's focus in the future is countering Russia and 
countering China. And so Moscow wants to know does that mean in 
Europe? Does that mean in the Middle East?
    Thank you, sir.
    Mr. Schneider. Mr. Lister.
    Mr. Lister. I would just say very briefly, I think--I would 
kind of be quite cynical about framing a solution or an interim 
solution to Syria that is nationwide. One of the reasons why I 
framed some of my opening comments in terms of looking at 
specific pockets of the country is because I think that is the 
only way we can approach it. And in that sense, answering your 
question would require me to look at, well, the Northeast and 
where does Turkey and Iran and Russia stand. In the Southwest 
where do all those country stand? But that is how I think that 
the United States should be looking at this.
    I don't think we have the means, and I also don't think we 
have the will to try to figure out a nationwide strategy for 
Syria. And I don't think one really necessarily exists. In 
fact, I don't think one necessarily exists for Russia and Iran 
either.
    So I think that is the starting point. I can submit 
something in writing to you in more detail----
    Mr. Schneider. Thank you. That would be very much 
appreciated.
    Mr. Lister [continuing]. To treat the different dynamics 
individually and thus individually with different 
countries.<greek-l>
    Insert? deg.
    Mr. Schneider. Okay.
    Mr. Itani, Ambassador Ford.
    Mr. Ford. Very briefly, Congressman.
    I think Russia, Iran, and Turkey all--all--do not want a 
sustained U.S. military presence in eastern Syria that builds 
up a Syrian Kurdish militia, and they will all work in their 
different ways to impede that, which is why I think it is 
especially important for the Congress to demand of the 
administration what are the benchmarks for progress so that 
these local forces we are setting up are self-sufficient. What 
are the timelines? And if the administration can't provide 
that, then it is incumbent upon the Congress to decide if you 
are comfortable with an indefinite and vague U.S. military 
mission in Syria.
    Mr. Schneider. Thank you. And I will yield back the balance 
of my 20 seconds.
    Mr. Ros-Lehtinen. Thank yo so much.
    And now Ambassador Wagner.
    Mrs. Wagner. Thank you, Madam Chairman, and thank you, 
witnesses.
    Dr. Karlin, I appreciated your review of Secretary Mattis' 
2018 national defense strategy. You summarized that 
prioritizing preparation for potential conflicts with China and 
Russia will come at the expense of fighting today's wars 
against violent nonstate actors.
    How do you think the Secretary ranks the Syrian conflict in 
his list of priorities? And to what extent do you think the 
Pentagon has the tools it needs to implement a serious policy 
in Syria beyond defeat of ISIS?
    Ms. Karlin. Thank you, ma'am.
    I think, based on at least what I have seen publicly from 
the Defense Department, the conflict in Syria is no longer 
ranked terribly high. I think the view is that the future is 
about high-end conventional conflicts, potentially with China, 
potentially with Russia. It is regaining the United States' 
qualitative military edge which has been waning in recent 
years. And so I think the view is very much focused on 
countering ISIS and then, as that wrap ups, shifting the U.S. 
focus.
    To the extent there is an issue on the table for the 
administration--for the Pentagon beyond Russia and China, I 
would say it is probably Afghanistan as we have seen with the 
troop surge. But that would really limit it.
    In terms of the tools, I think one of the challenges that 
we see going forward is much of the challenge in Syria is going 
to be much more a whole-of-government sort of approach, so it 
is less kind of Defense Department hard kinetic tools. It is 
more the ability to work in terms of developing areas and 
potentially even diplomacy depending on how one can build 
statelets of sorts through which to start to exert some sort of 
influence.
    Thank you.
    Mrs. Wagner. Thank you very much.
    Ambassador Ford, thank you for your service in Syria. How 
can the U.S. regain leverage for peace talks and address the, 
should I say, rivalry between the Russian, Iran, Turkey Astana 
talks and the U.N.-backed Geneva process?
    Mr. Ford. In short, I don't think the Americans now can 
gain much leverage in the Geneva process or the Astana process 
because it is a war, and we are not in the war--or our war is 
against a different enemy, Islamic extremists in the eastern 
part of the country. So we are not a player.
    In a war, military actions, military operations count for 
something. Stalin once asked how many divisions does the Pope 
have? I think the Russians asked a similar question about the 
Americans. Now, in western Syria, which is the subject of the 
peace talks, so it is my short answer.
    Mrs. Wagner. Thank you. Thank you.
    Mr. Lister, you wrote that the President has big plans for 
Syria but no real strategy. What would a serious strategy look 
like to enforce deescalation areas and restabilize Eastern 
Syria.
    Mr. Lister. That is a good question. How long do you have?
    Mrs. Wagner. Not long, sir.
    Mr. Lister. You know what? I think what the previous 
Secretary of State John Kerry did with the Russians had a 
number of serious faults, largely because of the fact that we 
didn't have very much leverage. But I think the design was 
probably grudgingly largely right in the sense that because we 
don't have leverage, it has to be a multilateral effort.
    The problem with the current deescalation regime, which was 
a Russian-led initiative, is that it was designed in such a way 
to deescalate, not to cease fire. Now, that simultaneously with 
a complete American cessation of support to the opposition 
meant only one thing, that the regime was the only partner that 
would benefit from deescalation.
    So the only solution to that, frankly speaking, is if that 
is what we want, to have a fair ceasefire nationwide in Syria, 
and, frankly, I don't think we are really going to get there, 
but if that is what we want, we have to have more skin in the 
game. And that might mean being more active in the northeast 
and more assertive. And that means creating the self-defense 
forces in the southwest that I talked about. That would be 
defensive and would have a specific purpose. They are not to 
attack the regime but to defend. But we have to have more skin 
in the game if we want to have any role in creating any of 
this.
    The same stands for the political process. We are, frankly 
speaking, laughed at, because we don't have the skin in the 
game and yet we make these big grand demands.
    Mrs. Wagner. Thank you, Mr. Lister, for your candid 
testimony here.
    Mr. Itani, in my brief time here, how can the U.S. ensure 
that the Syrian regime and its Iranian allies do not get access 
to any Western stabilization and reconstruction assistance? Do 
you think the international community should help rebuild 
Syria, for instance? In 2 seconds.
    Mr. Itani. No, I don't think they should do that. And by 
that I mean regime-held Syria, partly because I don't think it 
would work because it would be pouring money into one of the 
most corrupt and dysfunctional political economies in the 
world, a political economy that was actually the initial cause 
of the war, or the uprising.
    Before we even started talking about military uprising and 
regimes and militias and wars, it was about the political 
economy. So I think it would be a very bad investment, firstly.
    Second, we don't owe it to the regime to do it. It is not 
that I believe we should be starving the place, but I don't 
think it is the United States' duty to go rebuild the place for 
him.
    And luckily, that is one of the things we as the United 
States have a lot of leverage over, which is international 
financial flows and the organizations that he is--that the 
people who want to rebuild the place are hoping will jump in. 
In fact, I am actually more on the other extreme. I think we 
should be really worrying about the things that are already 
going on where our money is going on the----
    Mrs. Wagner. Because we do not want the Syrian regime or 
the Iranian allies to have access to our assistance in that 
regard?
    Mr. Itani. I don't believe we do, no.
    Mrs. Wagner. Yes. All right. Thank you very much.
    Madam Chairman, my time has expired, and I yield back.
    Mr. Ros-Lehtinen. Thank you Madam Ambassador.
    Mr. Connolly of Virginia.
    Mr. Connolly. Thank you, Madam Chairman.
    And, Mr. Lister, I want to focus in on your written 
testimony, because it strikes me. I have had to listen at this 
table to my friends on the other side criticize the Obama 
administration for lacking a serious strategy. And yet, if I 
read your statement correctly, you have got two very pointed 
critiques of the Trump administration. One is you say the Trump 
administration has provided no evidence that it has developed a 
meaningful strategy to match its grand goals and it has 
revealed no plans to deploy the resources that would be 
necessary to pursue them. Continuing to declare such goals 
without deploying even close to the necessary means to achieve 
them will only continue to erode American influence and 
credibility in the region.
    And then, secondly, what struck me in your testimony, you 
went further. You said it is important to place this in a 
policy context. By lending its support, its public and private 
support, to a Russian-led initiative, meaning a ceasefire, 
designed specifically by the Russians to strengthen Assad's 
position yet further, the Trump administration has directly 
abetted Assad's survival, Iran's expansion and threat to 
Israel, and continued civil displacement.
    We have gone way beyond a critique of Obama's policy being 
reckless and not effective to actually abetting the very people 
and forces we want to see removed as our precondition for peace 
in Syria. That is your critique, if I understand it. I want to 
give you the opportunity to expand, because that is one of the 
most powerful cogent critiques of the Trump approach to Syria I 
have yet heard.
    Mr. Lister. Well, thank you very much for summarizing some 
of the points I made. And I do----
    Mr. Connolly. I actually didn't summarize. I read them.
    Mr. Lister. Thank you. Well, thank you for reading them.
    And I stand entirely by them. I think the fact remains that 
it has taken a year for the Trump administration to make the 
speech that was given 2 or 3 weeks ago. And as I said in my 
opening comments, the speech was a vision. It was a dream. As 
Ms. Hani said, we have nowhere near the means or the will to 
achieve the grand objectives that we set.
    And, yes, frankly speaking, we don't know what went on 
behind closed doors when Trump met Vladimir Putin and then 
shortly thereafter there was the announcement of total 
cessation of support to the opposition in Syria. It is very 
hard to see those two things as not having been more than a 
coincidence. And the impact on the ground is huge. Let's rewind 
a little bit of time and look at what Russia did when it first 
intervened in Syria. Ninety-eight, I think, percent of its 
immediate air strikes in the first few months of its operations 
targeted the groups we were supporting.
    They weren't targeting al-Qaeda, they weren't targeting 
ISIS, they weren't targeting other Islamists. They were 
supporting the vetted groups that we had been supporting since 
the end of 2012. What does that tell us? Those were the groups 
that Russia saw as the biggest explicit threat to the regime 
because they were more moderate, they were more representative 
of a portion of the population.
    So for the Trump administration to cease support to every 
single group across the entire country that was opposing Assad 
and that we had invested in since the end of 2012 sent only one 
message to Russia: You have a free hand.
    Now, we might be thinking something different from the 
Trump administration today, because if you read Secretary 
Tillerson's speech, it sounds completely different. But that is 
also the problem, frankly speaking, that we have seen from the 
Trump administration is a complete lack of consistency. One day 
we are willing to work with the Russians. The next day we want 
to roll back the Russians. One day we want to attack Iran. The 
next day we accept Iran as where it is.
    Until we find a clear, clarified position, this is going to 
be the endless situation that U.S. policy is on Syria. In fact, 
we will lose it. We will be losing leverage, losing 
credibility, as I say, and losing the kind of leverage we would 
need on the ground to meet any of the objectives we have set.
    Mr. Connolly. Well, I want to thank you in the time I have 
left for that analysis. And I think it is really important for 
the record. There are practical and very grave consequences 
from the President of the United States aiding and abetting 
Vladimir Putin's expansion of his foreign policy at our expense 
and our allies'. And you have just pointed out one quite 
clearly. We have aided and abetted the Assad regime as a 
consequence. So that bromance between Mr. Trump and Mr. Putin 
is not a trivial one and it is not without consequence.
    I yield back.
    Mr. Ros-Lehtinen. Thank you.
    Mr. Lieu.
    Mr. Lieu. Thank you. Let me ask you a follow-up on what Mr. 
Lister said. The President of the United States has stated that 
he thinks it is good to be unpredictable. My view is, in 
foreign policy, that is just phenomenally stupid. And what you 
want is you want world leaders and other countries to actually 
know what U.S. foreign policy is and that we don't flip back 
and forth and backtrack. And I just want to have you amplify a 
little more. Is it your view that being unpredictable is a good 
thing in foreign policy or is it a bad thing?
    Mr. Lister. There is an argument for and against. But my 
opinion is it is very much a bad thing. I think the way that 
our rivals in the Syrian context, Russia and Iran and the 
regime look at it is it is not being unpredictable, it is not 
what I think the White House frequently calls it, which is 
strategic ambiguity. I think frankly it is just an excuse for 
indecision. And as I say, it did take us a year to make a 
speech about what we think we want Syria to be sometime down 
the line.
    We didn't give a strategy. We didn't give a timeline. We 
didn't,you know, show any means to get there. So I think the 
way our adversaries see it, which, I think, the most important 
answer to your question is, it makes us look confused.
    Mr. Lieu. Thank you. I think it is actually even worse than 
that. It is not just unpredictable. It is that the same Trump 
administration will simultaneously put out exactly opposite 
viewpoints and take opposite actions.
    So I will give you a sanction example. In the Middle East, 
as you all are familiar with their Saudi-led blockade on Qatar. 
And if you remember, you had Secretary of State Rex Tillerson 
publically saying no, no, no, this is a bad idea. Do not do 
economic blockade. It is basically an act of war. And then you 
have the President of the United States basically contradict 
him essentially the same day in the rose garden later saying--
taking credit, sort of, for, you know, doing this blockade. And 
then later you had the State Department selling billions of 
dollars of weapons to Qatar.
    So if someone is looking at that, they get the impression, 
I think, that the Trump administration has no idea what they 
are doing.
    So now let's talk a little bit about Syria. So in terms of 
Turkey, last July, the Center for Security Policy put out that 
Turkey reveals the location of American bases in Syria and that 
the Pentagon was quite concerned about that. They didn't want 
that to happen. Turkey went ahead and did it anyways. We then 
see more recently in a Reuters' report on January 31 that 
Turkey essentially is telling the U.S. that we should end our 
support for Kurdish YPG fighters or risk being targeted by 
Turkey. In fact, they had some pretty specific remarks that I 
view as threats to U.S. troops and our policy there.
    Given sort of Turkey's increasing--what is a good way to 
put it--ability to sort of take on the U.S. in ways we don't 
like and to sort of oppose our foreign policy interests, do you 
think it is time that we get some truth out there? So we all 
understand that the Armenian genocide happened, it is a 
historical fact. And the only reason that that resolution has 
not been passed is because we want to keep relations with 
Turkey.
    Is it now time to pass that resolution and tell Turkey 
that, look, if you are going to take these actions against us, 
we are going to now tell the truth and do some things that you 
just might not like?
    Anyone on the panel can answer that.
    Mr. Itani. I will jump in only because I want to continue 
the same conversation we were having about Turkey.
    The thing is, if you want to judge anything that happened 
over the past 4 years or 3 years with Turkey, the context is 
really, really bizarre. We were fighting a proxy war against 
the terrorist group on their border using the proxy group that 
they view as a terrorist group and that is their existential 
enemy.
    So imagine--flip it around. Imagine we were to go to 
Southern Syria to fight al-Qaeda, and we were to use Hezbollah 
to do it. How do you think the Israelis would react? So as the 
Israelis say it, I am not passing judgement on the militia in 
question. As the Israelis would see it, that is how they would 
see it. So everything they do I am judging in that lens.
    Now, separately something else is going on in Turkey that 
is kind of obfuscating everything, which is politically the 
place is taking a very worrying turn, and its leader is also 
taking a very worrying tone. And I am trying my best, when I 
think about this from a policy stance and I think everybody 
ought to try to disaggregate these two things. Turkey is not 
going to attack U.S. troops. That is Erdogan speaking. However, 
Turkey is going to do things like reveal our bases, because 
that is to the extent that which they could provoke and anger 
us. Now that ISIS is sort of behind us in the rearview mirror, 
I am hoping we can continue with our lives and go back to some 
degree of normalcy and have a normal State-to-State 
relationship. But under those circumstances, I don't think it 
is realistic to expect it to be anything but this hostile and 
bizarre.
    Mr. Lieu. Thank you.
    Mr. Ros-Lehtinen. Thank you, Ted.
    And I will recognize myself.
    Thank you.
    One of the more alarming situations unfolding in Syria is 
not only Iran's use of Shia militias to replicate Hezbollah's 
model, but Iran's attempt to solidify not only a theological 
bridge between Tehran, Baghdad, Damascus and Beirut, but an 
actual land bridge whether they can use the airport or not.
    In Sunni majority areas in Syria and Iraq, we have already 
seen Iran hard at work on this model directing its proxy groups 
to fuel sectarian tensions, displacing Sunnis, and manipulating 
the demographics of the region for its own benefit. We have 
heard reports that Iran is directing Hezbollah to take root in 
areas where Sunnis have fled in Syria in order to make them 
Shia majority.
    It seems like Iran and its proxies are playing chess 
thinking long-term, thinking strategically, while the U.S. and 
our partners are playing checkers and are failing to see the 
bigger picture.
    How can we in the U.S. and our partners work to counter 
Iran's efforts to alter Syria's demographics and establish its 
control and influence from Tehran to Beirut?
    Thank you, Faysal.
    Mr. Itani. I am happy to take this.
    So with respect to the chess-and-checkers analogy, I 
completely agree, Madam Chairwoman. I have nothing to say other 
than that.
    But on the issue of the demographics, something a bit 
stranger is going on in Syria. What seems to be happening is 
the regime is removing people it sees as hostile. Of course, 
most of them are Sunnis. But within the regime's eyes, you can 
also be a good Sunni. Actually, it is very useful to have good 
Sunnis in the sense that these are the Sunnis that like the 
regime. That is one of the reasons he is still around.
    So they keep them generally more prosperous areas or middle 
class, and everybody else gets the sharp end of the stick. 
Hezbollah is taking areas in Syria that are important to its 
position in the mountainous areas between Lebanon and Syria. So 
it has expanded its military domain. Demographics are only kind 
of a small section of that problem. And it is regime driven on 
the demographic end, strategically and militarily driven on the 
Hezbollah Iran end. I will put it that way, because especially 
remember there are not a lot of Shia in Syria. There are mostly 
Alawites, the people on the side of the regime.
    Ms. Karlin. Ma'am, could I add one point to that?
    Ms. Ros-Lehtinen. Yes, please.
    Ms. Karlin. You had mentioned Iraq. And what is interesting 
here is that the situation with Iraq and Iran is actually a lot 
more complicated now than I think we could say it was a few 
years ago.
    So I was in Iraq not long ago, including in Mosul. And what 
you see is much of the successful fight against ISIS militarily 
was conducted by militias, many of whom are supported by Iran. 
It was not conducted by most of the Iraqi military.
    So now you have Iranian support of militias that are 
running, say, checkpoints in and out of Mosul, as I saw. But to 
make it even tougher, they have a bit of a victory that they 
can wave about.
    Mr. Ros-Lehtinen. Ambassador Ford.
    Mr. Ford. One last point on this, Madam Chairwoman, 
briefly. It is difficult for me to imagine how we can 
successfully pressure Iran in Syria without being on the same 
wavelength as Turkey.
    Turkey and Iran are historic rivals. Goes back hundreds of 
years. Turkey is the major Sunni power, if you will, in that 
part of the world. Even more important in some ways--some 
ways--than Saudi Arabia.
    I think to govern is also to set priorities. If it is the 
priority of the United States to use the Syrian Kurdish forces 
as a hammer against the Islamic State, then it is going to be 
much harder to work with Turkey on the Iran problem.
    On the other hand, if we decide that now the priority 
should be Iran, then we need to figure out how to come to some 
sort of an agreement with Turkey in a manner that meets their 
concerns about what they perceive as an existential threat 
emanating from the Kurdish areas of Syria.
    Mr. Ros-Lehtinen. Thank you again to all of our panelists 
for thoughtful analysis. And our subcommittee will be back next 
week with a hearing on the PA unless we are in a shutdown, in 
which case, I don't know, rum and cokes at Ted's office, maybe.
    Thank you so much.
    And with that, the subcommittee is adjourned. Thank you.
    [Whereupon, at 3:37 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     
Material submitted for the record by the Honorable Theodore E. Deutch, 
         a Representative in Congress from the State of Florida
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 Material submitted for the record by the Honorable David Cicilline, a 
       Representative in Congress from the State of Rhode Island
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



             

                        <all>
</pre></body></html>
